Spotlight
Department of Homeland Security

Ofﬁce of Inspector General                                                                               May 2014 OIG-14-88


Why This Matters
Each year, issues related to
                                          Information Technology
information technology (IT) control
deficiencies are identified at the        Management Letter for the
component level during the
Department of Homeland Security
(DHS) annual financial statement
                                          U.S. Coast Guard Component of the
audit. Although United States Coast
Guard (USCG) took corrective              FY 2013 DHS Financial Statement
action to address its prior year IT
control deficiencies, issues
continued to be identified that
                                          Audit
impact USCG's financial data.
Collectively these deficiencies
negatively impact the internal
                                          What We Determined
controls over USCG's financial
reporting and its operation, and are      The Office of Inspector General contracted with the independent public accounting firms
considered to contribute to a             KPMG LLP (KPMG) to audit the DHS fiscal year (FY) 2013 consolidated financial
material weakness at the                  statement. USCG took corrective action to address certain prior IT control deficiencies. For
Department level under America            example, USCG made improvements over designing and implementing certain logical access,
Institute of Certified Public             physical access, and configuration management controls, including controls relative to the
Accountants standards.                    scripting process over USCG's information systems. However, during FY 2013, KPMG
                                          continued to identify general IT control deficiencies related to controls over security
                                          management, access controls and configuration management for USCG core financial and
                                          feeder systems and associated General Support system. Collectively, the IT control
                                          deficiencies limited USCG's ability to ensure that critical financial and operational data were
                                          maintained in such a manner to ensure confidentiality, integrity, and availability. In addition,
                                          based upon the results of our test work, we noted that the USCG did not fully comply with
                                          the Department's requirements under the Federal Financial Management Improvement Act
                                          (FFMIA).




For Further Information:
Contact our Office of Public Affairs at
(202)254-4100, or email us at
DHS-OIG.OfficePublicAffairs@oig.dhs.gov
